                   Telecommunications Costs Controls
                  Have Not Been Effectively Implemented
                   and Should Continue to Be Improved
                             and Monitored

                                 September 2004

                       Reference Number: 2004-20-156




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   September 8, 2004


      MEMORANDUM FOR CHIEF INFORMATION OFFICER


      FROM:                         Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Telecommunications Costs Controls Have
                                    Not Been Effectively Implemented and Should Continue to Be
                                    Improved and Monitored (Audit # 200420006)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      controls over telecommunications costs. The overall objective of this review was to
      evaluate the effectiveness of the controls over telecommunications costs.
      In summary, the Enterprise Networks organization is responsible for providing all forms
      of electronic communications (i.e., voice, data, video, and wireless) in the most efficient
      and effective manner. Since 1993, the Treasury Inspector General for Tax
      Administration, formerly the Inspection function of the IRS, has performed several audits
      and found that the IRS did not have effective controls over its telecommunications
      costs. As a result, in 1994 the IRS began tracking the internal controls over its
      telecommunications costs as a material weakness.1
      On October 16, 2003, the IRS notified the Department of the Treasury of its intent to
      downgrade the material weakness to a reportable condition.2 The IRS’ decision was
      based upon the completion of several corrective actions, including the implementation
      of the Telecommunications Asset Tool (TAT) system in June 2003. The TAT system is
      a web-based telecommunications resource management system designed to allow local
      and national offices to initiate, process, approve, review, and manage
      telecommunications resources to identify potential waste, fraud, and abuse. As of
      April 2004, TAT system expenditures totaled $5.1 million. The IRS also created an


      1
        A material weakness is a control deficiency the agency head determines to be significant enough to be reported
      outside the agency.
      2
        A reportable condition is a problematic issue that warrants special management attention to ensure improvement,
      rather than deterioration to the point at which it becomes a material weakness.
                                             2

automated process to compile an inventory of cellular telephones and developed a
system that provides online ordering and inventory capability for phone cards.
Other corrective actions taken by the IRS included hiring an outside firm to conduct an
analysis of local telecommunications costs. As of May 19, 2004, the analysis had
resulted in actual refunds to the IRS of approximately $2.2 million, while an additional
$48,000 in projected refunds were still pending. In addition, the IRS will avoid
$635,000 in telecommunications costs annually ($3.2 million over 5 years) as a result of
the vendor’s analysis. The IRS also conducted a review of Treasury Communications
System invoices, which recovered over $825,000 in credits due to the Federal
Government and identified $850,000 in unrecoverable circuit overpayments that
resulted from the IRS not having disconnected services when offices were relocated.
While the IRS has completed several corrective actions, the TAT system has not been
effectively implemented and inventory control weaknesses for cellular telephones and
phone cards have not been adequately addressed. For example, as of May 21, 2004,
the TAT system’s Waste, Fraud, and Abuse (WFA) reports system had significant
problems and the automated quarterly reports, reflecting questionable long distance
telephone call and phone card use, had not been effectively distributed for managerial
review.
In addition, critical information is not captured by the WFA reports system for
management to assess the program’s effectiveness. For example, the system does not
permit management to assess a call as “Unauthorized.” The system also does not
generate reports presenting the timeliness of management’s review of the quarterly call
detail reports. Therefore, the IRS cannot determine the effectiveness of the quarterly
review criteria in identifying suspicious calling patterns and the timeliness of
management’s reviews.
The TAT system electronic billing (e-billing) module also had implementation problems.
For example, it does not reconcile the invoice against an inventory of circuits for asset
verification, and several IRS offices we contacted reported problems with the electronic
invoice process. While the TAT system e-billing module does compare invoices against
the historical norm to identify suspect charges, the variance threshold is currently at the
system default setting of 10 percent for all offices (i.e., invoices are not flagged for
review until the invoice amount is above the historical norm by at least 10 percent). As
a result, erroneous local telephone service charges may not be detected.
Finally, the IRS has not established an accurate inventory of its cellular telephones, and
a complete inventory of phone cards has not been conducted since 2002. In addition,
policies and procedures have not been developed for completing the annual inventory
validation and reporting the results.
We recommended the Chief Information Officer (CIO) ensure the IRS continues to
monitor controls over its telecommunications costs as a reportable condition, quarterly
reports to monitor employee telephone use are distributed, and the TAT system permits
an assessment of calls as “Unauthorized” and requires “Follow up” calls to be resolved
as “Valid” or “Unauthorized.” We also recommended that the CIO ensure a reporting
                                             3

feature is added to identify the results of managerial reviews, and work continues to
resolve the technical problems. In addition, we recommended the CIO ensure the
variance threshold percentage is evaluated, offices are directed to use the TAT system
e-billing module, and a post-implementation review is conducted. Finally, we
recommended the CIO ensure that service is immediately discontinued for unregistered
cellular telephones, policies and procedures are developed for the annual inventory
validation of cellular telephones and phone cards, and a complete and accurate
inventory is established.
Management’s Response: IRS management agreed with the recommendations
presented in this report. The IRS will continue to monitor controls over its
telecommunications costs and maintain it as a reportable condition until deficiencies are
resolved. IRS management corrected two problems causing the WFA report
deficiencies and will implement automated distribution of the quarterly detail reports.
The remaining two deficiencies will also be corrected. The status indicators will be
changed and the information will be provided to local management for further actions, if
necessary. Also, a reporting feature is being added to the system and the quarterly
reports will be provided to management.
In addition, a memorandum was issued advising field locations they will be required to
deliver the true 10-digit originating telephone number. The TAT team is working with
the Human Resources Connect Project Office to ensure the data are current. The TAT
team will also evaluate the use of the 10 percent variance for all field offices and adjust
the percentage accordingly. A memorandum is being issued directing the mandatory
use of the TAT e-billing system process for bill payment and bill verification. A
post-implementation review will be conducted within 60 days of accepting the TAT
system application.
IRS management also responded that the service for unregistered cellular telephones
will be terminated as of December 31, 2004; policies and procedures regarding the
Cellular Telephone program are part of the Wireless Electronic Ordering System web
page and Internal Revenue Manual; cellular telephones will be validated annually; and
web site improvements will enable a more effective validation process.
In addition, in May 2004, draft phone card policies and procedures were developed and
are being reviewed; inventory reports will be shared with Business Operating Division
management; the Calling Card Ordering System contains an accurate phone card
inventory; and in April 2004, the Enterprise Networks organization began an annual
audit/revalidation process for phone cards. Finally, a determination will be made as to
whether the inclusion of a cellular telephone and/or phone card inventory module in the
TAT system is a cost-effective solution for the Federal Government. Management’s
complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
                 Telecommunications Costs Controls Have Not Been Effectively
                Implemented and Should Continue to Be Improved and Monitored




                                                  Table of Contents


Background ............................................................................................... Page 1
While Several Completed Corrective Actions Improve the Management
of Telecommunications Costs, Control Deficiencies Still Exist .................. Page 3
         Recommendation 1: .......................................................................Page 5

An Effective Managerial Review Process for Long Distance Telephone
Calls and Phone Card Use Has Not Been Implemented ........................... Page 6
         Recommendation 2: .......................................................................Page 10
         Recommendations 3 through 5:.....................................................Page 11
         Recommendation 6: .......................................................................Page 12

Several Obstacles Preclude the Successful Implementation
of an Electronic Invoice Process for Local Telephone Services ................ Page 12
         Recommendations 7 through 9:.....................................................Page 16

Control Weaknesses in Managing the Cellular Telephone
Inventory Still Exist .................................................................................... Page 16
         Recommendations 10 through 12:.................................................Page 20

Annual Inventories of Phone Cards Have Not Occurred on a
Consistent Basis ....................................................................................... Page 21
         Recommendation 13: .....................................................................Page 22
         Recommendation 14: .....................................................................Page 23

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 24
Appendix II – Major Contributors to This Report ....................................... Page 26
Appendix III – Report Distribution List ....................................................... Page 27
Appendix IV – Outcome Measures............................................................ Page 28
Appendix V – Management’s Response to the Draft Report ..................... Page 29
              Telecommunications Costs Controls Have Not Been Effectively
             Implemented and Should Continue to Be Improved and Monitored

                                 One of the Internal Revenue Service’s (IRS) major
Background
                                 strategies contained in the IRS Strategic Plan Fiscal Years
                                 (FY) 2000 – 2005 is to promote effective stewardship of
                                 assets and information by improving internal processes for
                                 information and asset management. In support of this
                                 strategy, the mission of the Enterprise Networks
                                 organization is to provide all forms of electronic
                                 communications (i.e., voice, data, video, and wireless) in the
                                 most efficient and effective manner. For FY 2004, the
                                 Enterprise Networks organization’s nonlabor budget was
                                 $297 million, which included $115 million for Wide Area
                                 Data Services, $80 million for Local Voice and Data
                                 Services, $11 million for Federal Technology Services
                                 (FTS)1 Network Services, and $4.5 million for Wireless
                                 Cellular Telephone Services.
                                 Since 1993, the Treasury Inspector General for Tax
                                 Administration (TIGTA), formerly the Inspection function
                                 of the IRS, has performed several audits of the IRS’
                                 telecommunications program and found that the IRS did not
                                 have effective controls over its telecommunications costs for
                                 long distance, local telephone service, cellular telephones,
                                 phone cards, and data networks. As a result, in 1994 the
                                 IRS began tracking the internal controls over its
                                 telecommunications costs as a material weakness2 in
                                 accordance with the Federal Managers’ Financial Integrity
                                 Act of 1982.3 IRS management has since implemented
                                 several corrective actions to improve controls in the
                                 telecommunications program.
                                 In July 2000, the IRS began developing the
                                 Telecommunications Asset Tool (TAT) system as its
                                 telecommunications monitoring and tracking system to
                                 address many of the reported weaknesses in the controls
                                 over its telecommunications costs. As of April 2004, TAT
                                 system expenditures totaled $5.1 million. The TAT system
                                 is a web-based telecommunications resource management


                                 1
                                   The General Services Administration FTS Network Services provides
                                 a comprehensive program of voice, data, and video services to Federal
                                 Government agencies.
                                 2
                                   A material weakness is a control deficiency the agency head
                                 determines to be significant enough to be reported outside the agency.
                                 3
                                   31 U.S.C. §§ 1105, 1113, 3512 (2000).
                                                                                                Page 1
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored

                    system designed to allow local and national offices to
                    initiate, process, approve, review, and manage FTS
                    resources to identify potential waste, fraud, and abuse.
                    The identification of potential waste, fraud, and abuse is
                    accomplished by reviewing long distance telephone call and
                    phone card use with established criteria agreed to by the
                    National Treasury Employees Union (NTEU) on
                    September 25, 2001. However, prior to this agreement, long
                    distance telephone call and phone card use had not been
                    reviewed since December 1998 because the NTEU had not
                    agreed to the revised Billing Analysis Reporting Tool
                    (BART)4 criteria.
                    In addition to reviewing long distance telephone call and
                    phone card use, the TAT system provides additional
                    functionality in the following five modules:
                        •   Service Request Orders – Provides an online
                            telecommunications ordering function used to
                            submit new FTS orders to Sprint and monitor the
                            acceptance status of orders.
                        •   Telecom Assets – Allows authorized users to view
                            the asset inventory by type of service or by IRS site.
                        •   Local Exchange Carriers (LEC) Electronic Billing
                            (e-billing) – Allows authorized users to register,
                            review, authorize, and certify telecommunications
                            invoices from six LECs online.
                        •   Finance – Allows users to view FTS billing data in
                            various report formats. The finance module has also
                            been enhanced to support other financial
                            functionalities. For example, the Waste, Fraud, and
                            Abuse (WFA) reports system was added to provide
                            managers the ability to review employee use of
                            telephones and phone cards for long distance calls.
                        •   Administration – Allows users and administrators to
                            perform administrative functions such as authorizing
                            users, editing user information, configuring service

                    4
                      The BART system was one of several systems previously developed
                    by the IRS to assist in reviewing long distance telephone charges to
                    identify inefficient and unauthorized use.
                                                                                   Page 2
               Telecommunications Costs Controls Have Not Been Effectively
              Implemented and Should Continue to Be Improved and Monitored

                                           types and features, editing or adding location
                                           information, and running various reports.
                                   On October 16, 2003, the IRS notified the Department of
                                   the Treasury of its intent to downgrade the internal controls
                                   over its telecommunications costs from a material weakness
                                   to a reportable condition.5 The IRS’ decision was based on
                                   the completion of several corrective actions it had taken to
                                   address the control weaknesses, which included
                                   implementing the TAT system and issuing policies and
                                   procedures on the proper use of phone cards and cellular
                                   telephones. The Department of the Treasury concurred with
                                   the IRS’ request on November 20, 2003.
                                   This review was performed in the Enterprise Networks
                                   office at the IRS National Headquarters in New Carrollton,
                                   Maryland, and the Tennessee Computing Center6 in
                                   Memphis, Tennessee, during the period January through
                                   June 2004. The audit was conducted in accordance with
                                   Government Auditing Standards. Detailed information on
                                   our audit objective, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   The Department of the Treasury Directive (TD) 40-04,
While Several Completed
                                   Treasury Internal (Management) Control Program, and the
Corrective Actions Improve
                                   Office of Management and Budget (OMB) Circular A-123,
the Management of
                                   Management Accountability and Control, provide guidance
Telecommunications Costs,
                                   on the internal (management) controls required to
Control Deficiencies Still Exist
                                   reasonably ensure programs and resources are protected
                                   from waste, fraud, and mismanagement. The IRS
                                   Management Controls Accountability Program (MCAP)
                                   defines management controls as the programs, policies, and
                                   procedures for ensuring mission and program objectives are
                                   accomplished and resources are adequately safeguarded.
                                   The MCAP also assigns IRS managers stewardship and
                                   accountability for IRS operations and prompt correction of
                                   management control deficiencies.

                                   5
                                     A reportable condition is a problematic issue that warrants special
                                   management attention to ensure improvement, rather than deterioration
                                   to the point at which it becomes a material weakness.
                                   6
                                     IRS Computing Centers support tax processing and information
                                   management through a data processing and telecommunications
                                   infrastructure.
                                                                                                 Page 3
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored

                    Corrective actions completed by the IRS to improve the
                    management of telecommunications costs include:
                        •   Implementing a nationwide system to detect and
                            identify potential wasteful, fraudulent, and abusive
                            charges and to monitor employee long distance
                            telephone call and phone card use.
                        •   Establishing a process to receive local telephone
                            carrier bills electronically to streamline local billing
                            review and certification for payment.
                        •   Creating an automated process to compile a cellular
                            telephone inventory database and to order
                            equipment, track devices, and monitor equipment
                            use.
                        •   Developing a system that provides online ordering
                            and inventory capability for phone cards and
                            implementing several procedures to safeguard and
                            manage the phone card inventory.
                    In addition, in response to a September 2002 TIGTA report
                    on control weaknesses over the IRS’ local
                    telecommunications costs,7 the IRS hired an outside firm to
                    conduct an analysis of local telecommunications costs to
                    identify areas where potential savings could be realized. As
                    of May 19, 2004, the analysis had resulted in actual refunds
                    to the IRS by the LECs of approximately $2.2 million, while
                    an additional $48,000 in projected refunds were pending
                    final negotiations with the vendors. The IRS will also avoid
                    $635,000 in telecommunications costs annually as a result
                    of the vendor’s analysis.
                    We also previously recommended the IRS perform an
                    in-depth analysis of Treasury Communications System
                    (TCS) invoices to identify billings for circuits and
                    equipment that no longer exist at IRS offices.8 In
                    January 2003, the IRS completed its review of TCS billing
                    invoices, which recovered over $825,000 in credits due to

                    7
                      Controls Over the Telecommunications Programs Continue to Need
                    Improvement (Reference Number 2002-20-198, dated September 2002).
                    8
                      Cost Savings Can Be Achieved Through Improved Monitoring of the
                    Treasury Communications System Contract (Reference
                    Number 2000-10-028, dated February 2000).
                                                                              Page 4
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored

                    the Federal Government and identified $850,000 in
                    unrecoverable circuit overpayments that resulted from the
                    IRS not having disconnected services when offices were
                    relocated (see Appendix IV for the savings calculations).
                    With the completion of these corrective actions, the
                    Enterprise Networks organization has requested closing as a
                    reportable condition the controls over telecommunications
                    costs. However, the implementation of the TAT system and
                    other completed corrective actions have not effectively
                    addressed the control deficiencies surrounding the
                    management of telecommunications costs. For example:
                        •   An effective managerial review process for long
                            distance telephone calls and phone card use has not
                            been implemented.
                        •   Several obstacles preclude the successful
                            implementation of an electronic invoice process for
                            local telephone services.
                        •   Control weaknesses in managing the cellular
                            telephone inventory still exist.
                        •   Annual inventories of phone cards have not occurred
                            on a consistent basis.
                    Consequently, management cannot effectively detect and
                    deter abusive calling patterns, detect erroneous local
                    telephone service charges, and realize expected gains in
                    efficiency from electronic invoice processing. The IRS also
                    continues to be at risk to the possible misappropriation of
                    cellular telephones and the payment of erroneous or
                    unauthorized cellular telephone and phone card charges.

                    Recommendation

                    1. The Chief Information Officer (CIO) should ensure the
                       IRS continues to monitor the controls over its
                       telecommunications costs as a reportable condition until
                       the remaining control deficiencies are resolved.
                    Management’s Response: The IRS will continue to monitor
                    controls over its telecommunications costs and maintain it
                    as a reportable condition until deficiencies are resolved.

                                                                          Page 5
             Telecommunications Costs Controls Have Not Been Effectively
            Implemented and Should Continue to Be Improved and Monitored

                                 OMB Circular A-123 requires management controls to
An Effective Managerial Review
                                 reasonably ensure programs and resources are protected
Process for Long Distance
                                 from waste, fraud, and mismanagement. To ensure the
Telephone Calls and Phone
                                 appropriate use of office equipment, the Department of the
Card Use Has Not Been
                                 Treasury issued TD 87-04, Personal Use of Government
Implemented
                                 Office Equipment Including Information Technology, which
                                 authorized limited personal use of Federal Government
                                 office equipment by employees under certain conditions.
                                 The IRS allows employees to make limited use of Federal
                                 Government telephones for necessary personal calls that do
                                 not adversely affect the performance of office duties, are of
                                 reasonable duration and frequency, and could not
                                 reasonably have been made during nonwork hours. For
                                 employees in travel status, the IRS permits limited use of
                                 Federal Government telephones or phone cards for
                                 necessary personal telephone calls.
                                 On February 21, 2003, the IRS CIO issued memoranda to
                                 all employees and managers notifying them that the IRS
                                 would use the TAT system to perform quarterly reviews of
                                 employee long distance telephone call use and phone card
                                 records that meet certain criteria. In June 2003, the IRS
                                 reported the TAT system finance module was fully
                                 functional and effectively generates reports to monitor
                                 employee telephone use.
                                 With the implementation of the TAT system, the IRS
                                 notified the Department of the Treasury on
                                 October 16, 2003, that it had implemented a system to
                                 detect and identify potential wasteful, fraudulent, and
                                 abusive charges and monitor employee telephone use.
                                 However, as of May 21, 2004, an effective managerial
                                 review process of FTS long distance telephone call and
                                 phone card use had not been implemented. For example:
                                    •   Questionable calls are not being regularly identified
                                        for managerial review.
                                    •   Significant implementation problems reduce the
                                        TAT system’s effectiveness.
                                    •   Critical information is not captured by the TAT
                                        system for management to assess the program’s
                                        effectiveness.

                                                                                        Page 6
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored

                    As a result, management cannot effectively detect and deter
                    abusive calling patterns and collect reimbursement for
                    unauthorized FTS long distance telephone call and phone
                    card charges from employees.
                    Questionable calls are not being regularly identified for
                    managerial review
                    Standardized reports were developed for managerial review
                    based on established criteria used to recognize patterns of
                    potentially inappropriate or wasteful calls. The TAT
                    system’s WFA reports processing was to be conducted on a
                    quarterly basis and would concentrate on the potential
                    waste, fraud, and abuse of telecommunications resources
                    and lost productivity resulting from excessive staff time
                    spent on personal telephone calls rather than on official
                    duties. Managers were to use the automated reports to
                    conduct follow-up analyses, educate users, facilitate
                    corrective actions, and track implementation of best
                    practices.
                    Although the IRS reported to the Department of the
                    Treasury that the TAT system finance module (including
                    the WFA reports system) was fully functional in June 2003,
                    the reports were not automatically generated and provided
                    to managers. Report generation was delayed because the
                    IRS had not completed the computer matching program9
                    notification requirements pursuant to the Privacy Act
                    of 197410 to provide for a 40-day window of review by the
                    OMB and members of the Congress prior to
                    implementation. The review window expired the beginning
                    of March 2004.
                    The TAT Project Team began the initial run of the
                    automated WFA reports system reports process on
                    April 22, 2004, after complying with the computer matching
                    program notification requirements and ensuring all
                    communication and training activities to promote awareness
                    and understanding of the system were completed. The
                    WFA reports system is designed to provide first-level



                    9
                      A computer-matching program is the computerized comparison of two
                    or more automated systems of records.
                    10
                       5 U.S.C. § 552a (2000).
                                                                                Page 7
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored

                    managers an email containing a link to the WFA reports
                    system reports for their offices.
                    Although the emails were issued on April 22, 2004,
                    containing a link for managers to access the quarterly call
                    detail reports, the implementation date was not met because
                    managers were unable to access their reports due to network
                    and database problems. While the TAT Project Team
                    reported that both problems were corrected by
                    April 26, 2004, additional problems were identified. As of
                    May 21, 2004, the problems had not been resolved and the
                    system had not been implemented. The delay in
                    automatically distributing the WFA reports system reports
                    resulted in the IRS being unnecessarily exposed, since
                    June 2003, to incurring charges for unauthorized telephone
                    use without the possibility of detection and the initiation of
                    disciplinary and collection action against employees.
                    In addition, information was provided to all managers that
                    the ad hoc process was available to request reports detailing
                    calls from office telephones or phone cards if they suspected
                    potential problems. The ad hoc reporting process began in
                    January 2003, but its use has been limited. For example, the
                    TAT Project Team received only 20 requests for ad hoc
                    reports during the period October 2003 through
                    March 2004.
                    Significant implementation problems reduce the TAT
                    system’s effectiveness
                    While implementing the WFA reports system, the TAT
                    Project Team has identified problems associating the
                    telephone number in the call detail record to the telephone
                    number assigned to an IRS employee, which significantly
                    reduces the number of exception records that are available
                    for managerial review. For example, only 986 (38 percent)
                    of the 2,624 records that contained FTS long distance
                    telephone and phone card calls meeting the questionable
                    criteria during the first run of the WFA reports system on
                    April 22, 2004, actually resulted in the generation of an
                    email to a manager. The TAT Project Team attributed part
                    of the problem to an issue with the Automatic Number




                                                                           Page 8
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored

                    Identifier (ANI)11 capability at some IRS facilities, which is
                    needed to identify the telephone number that initiated the
                    questionable call. Not having the ANI capability results in
                    mismatches, since the call detail record does not contain the
                    correct telephone number from which the call originated.
                    In addition, the TAT Project Team suspects the telephone
                    numbers for some IRS employees and managers contained
                    in the Corporate Authoritative Directory Service (CADS)12
                    system may not be complete or accurate. Since the TAT
                    system’s WFA reports system uses the CADS system to
                    identify the employee who made the questionable telephone
                    call by matching the originating telephone number in the
                    call detail report to the telephone number contained in the
                    CADS system, erroneous telephone numbers affect the IRS’
                    ability to correctly associate the questionable call with the
                    responsible IRS employee. For example, an analysis of the
                    113,158 employee accounts contained in the CADS system
                    showed that only 94,801 (84 percent) had a telephone
                    number for the employee in their account information. Not
                    having the ANI capability at some IRS facilities, combined
                    with incomplete and inaccurate information in the CADS
                    system, significantly hampers the ability of the WFA reports
                    system to correctly identify the employee responsible for
                    making a questionable call.
                    Critical information is not captured by the TAT system
                    for management to assess the program’s effectiveness
                    The Department of the Treasury Information Technology
                    Manual requires each bureau to establish a performance
                    measurement approach to measure an information
                    technology investment in terms of improved efficiency,
                    effectiveness, and increased quality. For the WFA reports
                    system, managers are required to review their quarterly call
                    detail reports within 5 business days of the initial TAT
                    system email and certify within 15 business days that their


                    11
                       The ANI is a service feature in which the directory number or
                    equipment number of the calling station that originated a call is
                    automatically provided for billing purposes.
                    12
                       The CADS system is an IRS Intranet web-based tool used to locate
                    people by name, organization, or location. The CADS system includes
                    the telephone number, email address, and manager for each IRS
                    employee.
                                                                                 Page 9
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored

                    employee(s) made the call(s) for valid business reasons. For
                    an unauthorized call, the manager is instructed to obtain
                    reimbursement of the cost of the call plus fees and taxes. In
                    addition, managers were advised that disciplinary or adverse
                    action might be appropriate.
                    The WFA reports system permits management to assess a
                    call as “Valid” or “Follow up” but does not permit
                    management to assess a call as “Unauthorized.” In addition,
                    the WFA reports system does not include the ability to
                    generate a report that would identify the timeliness of
                    management’s review of the quarterly call detail reports.
                    For the ad hoc reports requested by managers, the TAT
                    Project Team tracks the date of the request and who
                    requested the ad hoc report because the WFA reports system
                    module does not track the requests.
                    As a result, the TAT Project Team cannot determine
                    whether the quarterly review criteria are effective in
                    identifying suspicious calling patterns and whether
                    managers timely reviewed the questionable calls. The TAT
                    Project Team explained that the WFA reports system is
                    considered to be a data-gathering system only intended to
                    provide managers with information on telephone use by
                    their staffs.

                    Recommendations
                    The CIO should ensure:
                    2. Quarterly call detail reports are manually distributed
                       until the problems associated with implementing the
                       WFA reports system have been sufficiently addressed.
                    Management’s Response: Two of the four problems that
                    caused the deficiencies in the initial reports were corrected
                    in April 2004. With the corrections, the Enterprise
                    Networks organization is implementing automated
                    distribution of the quarterly call detail reports. The two
                    remaining problems will be corrected with the
                    implementation of a change in the way employees access
                    the IRS computer network and a modification to the system
                    that will allow a manager to designate a proxy manager.



                                                                          Page 10
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored

                    3. The WFA reports system is modified to permit an
                       assessment of calls as “Unauthorized” and require
                       “Follow up” calls to be resolved as “Valid” or
                       “Unauthorized.”
                    Management’s Response: The Enterprise Networks
                    organization submitted a change request to the contractor to
                    change the STATUS indicators from “Valid” and
                    “Follow-up” to “Accept” and “Reject.” Further selections
                    under “Reject” will include: “Closed – Employee did not
                    make call;” “Closed – See manager,” followed by
                    free-form comments; and “Closed – Resolved” – followed
                    by free-form comments to be entered by the manager. The
                    information will be used by local management for further
                    actions, if necessary.
                    4. A reporting feature is added to the WFA reports system
                       to identify the results of the managerial reviews
                       (including the timeliness of management’s review), the
                       assessment on the validity of the call, and trends of
                       repeated unaccounted for use of Federal Government
                       telephones and phone cards. Management should also
                       follow up on the trends of questionable calls.
                    Management’s Response: A reporting feature is being
                    added to the system that will allow a report to be run that
                    identifies the nature and timeliness of the managers’
                    decisions. These reports will be provided quarterly to
                    Business Operating Division (BOD) management to
                    determine if decisions were appropriate and to the Chief
                    Human Capital Officer to determine if there are any
                    labor/employee relations issues to resolve.
                    5. The TAT Project Team reviews the call detail records to
                       identify potential ANI issues and takes the necessary
                       actions to resolve these issues.
                    Management’s Response: The Director, End User
                    Equipment and Services, and Director, Enterprise Networks,
                    issued a memorandum, dated June 21, 2004, advising field
                    locations that effective January 3, 2005, each official IRS
                    site will be required to deliver the true 10-digit originating
                    telephone number of each calling party to the FTS
                    long-distance carrier. This ANI policy will allow the
                    originating telephone number to be passed through the FTS

                                                                          Page 11
             Telecommunications Costs Controls Have Not Been Effectively
            Implemented and Should Continue to Be Improved and Monitored

                                  network for reporting purposes. Additionally, sites were
                                  advised to notify the Enterprise Networks organization of
                                  any impediments to achieving that objective.
                                  6. The TAT Project Team continues to work with the
                                     CADS Program Office to ensure the information in the
                                     CADS system is complete and accurate.
                                  Management’s Response: The TAT database links with the
                                  CADS to match the telephone number with the employee
                                  assigned and, consequently, the manager of that employee.
                                  The CADS obtains its employee and manager data from the
                                  Human Resources Connection (HR Connect).
                                  Discrepancies in both the HR Connect and the CADS have
                                  led to invalid data in the reports. The TAT database is being
                                  revised to permit an administrator to run filters to collect
                                  and identify invalid data provided by the HR Connect. The
                                  TAT team is working with the HR Connect Project Office to
                                  ensure the HR Connect is kept up-to-date.
                                  The Department of the Treasury Information System Life
Several Obstacles Preclude the
                                  Cycle Manual establishes the rules and principles governing
Successful Implementation of an
                                  the life cycle management of information systems to ensure
Electronic Invoice Process for
                                  developed systems are responsive to mission requirements.
Local Telephone Services
                                  After a system has been operational for a period of time,
                                  management should evaluate the success of the system by
                                  determining whether expected benefits have been achieved
                                  and user needs have been met.
                                  The TAT system e-billing module allows authorized users
                                  online capability to register, review, authorize, and certify
                                  telecommunications invoices from LECs. This module is
                                  expected to streamline the review, certification, and
                                  processing of electronic invoicing to allow timely payment
                                  of bills. In October 2003, the IRS reported to the
                                  Department of the Treasury that the TAT system e-billing
                                  module to address the control weakness over local
                                  telecommunications costs was operational. However,
                                  several obstacles preclude the successful implementation of
                                  an electronic invoice process for local telephone services.
                                  For example:
                                     •   The TAT system e-billing module does not reconcile
                                         the invoice against an inventory of circuits for asset
                                         verification.
                                                                                        Page 12
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored

                        •   Some IRS locations are not using the TAT system
                            e-billing module to review invoices.
                        •   Several offices reported systemic problems with the
                            electronic invoice process.
                    As a result, erroneous local telephone service charges may
                    not be detected and expected gains in efficiency from
                    electronic invoice processing may not be realized. In
                    addition, the TAT Project Manager advised that a
                    post-implementation review had not been conducted
                    because the TAT system was not yet fully implemented and
                    they are waiting for it to be security certified.
                    The TAT system e-billing module does not reconcile the
                    invoice against an inventory of circuits for asset
                    verification
                    On December 16, 2003, an outside firm completed an
                    analysis of the IRS’ local telecommunications costs to
                    identify areas where potential savings could be realized.
                    This analysis was also used by the IRS to establish a
                    baseline inventory of local telephone service circuitry,
                    which could then be used by the TAT system e-billing
                    module to reconcile invoices against the asset database for
                    billing certification purposes. If discrepancies should be
                    identified, the TAT system e-billing module would issue
                    notifications to the affected users. However, the TAT
                    Project Team explained that the asset reconciliation
                    capability is on hold because the process causes a delay in
                    system performance that affects user processing. To address
                    the system performance issue, the TAT Project Team
                    developed a system requirements document and submitted a
                    system change request.
                    Although the reconciliation of invoices against the asset
                    database has not occurred, the TAT system e-billing module
                    does compare invoices against a user-defined variance
                    threshold to determine whether the current charges are
                    above or below the historical norm, which is intended to
                    identify suspect charges for additional scrutiny by the
                    reviewer. For example, if the amount of the current month’s
                    bill exceeds the historical average by 10 percent (current
                    system default variance for all offices) or more, the TAT
                    system e-billing module notifies the user by highlighting the
                                                                         Page 13
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored

                    bill amount and displaying a note detailing the exception.
                    While the variance threshold may increase the possibility of
                    identifying suspect charges, it also increases the risk that
                    inappropriate charges will not be identified in subsequent
                    months because inappropriate charges within the variance
                    amount are added to the baseline for future historical
                    comparisons.
                    Some IRS locations are not using the TAT system
                    e-billing module to review invoices
                    On June 25, 2003, the Director, End User Equipment and
                    Services (EUES), issued a memorandum to all Area13
                    Directors, Computing Center Directors, and Territory
                    Managers announcing that the TAT system e-billing module
                    for local telephone services was operational. The
                    memorandum encouraged management to identify those
                    individuals responsible for receiving, reviewing, and
                    certifying local telephone bills and have those individuals
                    register for the TAT system e-billing module.
                    However, not all IRS locations are using the TAT system
                    e-billing module. For example, three of the eight offices we
                    contacted were not using the electronic invoice process
                    available on the TAT system e-billing module.
                    The reasons provided by the three sites for not using the
                    TAT system e-billing module varied. Officials at one site
                    indicated their budget information was not accurately input
                    into the module, while those at another site explained that
                    the person responsible for reviewing its invoices was
                    incorrectly assigned to a different site in the TAT system.
                    Local management at the third site explained that they did
                    not use the TAT system e-billing module because their site
                    had entered into a 5-year contract with the local telephone
                    carrier that they preferred to administer outside of the
                    electronic invoice process available on the TAT system.
                    The TAT Project Team explained that no directive has been
                    issued requiring all IRS offices to use the TAT system
                    e-billing module.


                    13
                      EUES resources are allocated over three geographically organized
                    Area Offices (i.e., Northeast, Southeast, and Western). Each Area has
                    7 Territories (21 total Territories) that serve segments of the Area.
                                                                                  Page 14
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored

                    Several offices reported problems and concerns with the
                    electronic invoice process
                    We surveyed 42 offices that were registered to use the TAT
                    system e-billing module. Of these 42 offices, 9 reported
                    problems and/or complaints with the electronic invoice
                    process. Systemic problems reported by the offices
                    included:
                        •   Delay of up to 2 weeks before the invoices are
                            available for review and certification (2 offices).
                        •   Email notification not received when bills are
                            available for review (1 office).
                        •   Unable to amend the funding allocations, and details
                            for some charges are not reflected (1 office).
                    Several offices also complained that the TAT system
                    e-billing module has not automated the process for paying
                    the invoices, since they still have to print the invoice
                    summary page and fax it to the Beckley Finance Center for
                    payment. In addition, several offices suggested they be
                    permitted to approve a payment amount that is different
                    from the invoice amount when they identify charges they
                    are disputing.
                    As a result of the problems with the TAT system e-billing
                    module, IRS management cannot determine the module’s
                    effectiveness in achieving original program objectives and
                    maximize efficiency gains from online electronic invoice
                    processing.
                    Management’s Actions: The TAT Project Team has taken
                    several actions to address the system problems, including
                    working with the Enterprise Service Desk (ESD) Program
                    Office to incorporate the TAT system modules as an ESD
                    Help Desk project, working with the Mission Assurance
                    organization to obtain final security certification of the
                    system so vendor invoices can be electronically received,
                    and submitting several system change requests. The system
                    changes are to be implemented by September 2004.




                                                                           Page 15
              Telecommunications Costs Controls Have Not Been Effectively
             Implemented and Should Continue to Be Improved and Monitored

                                  Recommendations

                                  The CIO should ensure:
                                  7. The variance percentage is evaluated to ensure the
                                     setting is appropriate for each site.
                                  Management’s Response: A memorandum will be issued
                                  by September 3, 2004, requiring the mandatory use of the
                                  TAT system e-billing process effective October 1, 2004.
                                  Subsequently, the use of the 10 percent variance for all field
                                  offices will be evaluated and adjusted accordingly.
                                  8. Offices are directed to use the TAT system e-billing
                                     module and any obstacles to nationwide use are
                                     identified for timely resolution.
                                  Management’s Response: A memorandum is being issued
                                  directing the mandatory use of the TAT system e-billing
                                  process for bill payment and bill verification effective
                                  October 1, 2004. Any office that cannot use the TAT
                                  system e-billing process must submit an exception request
                                  with full justification no later than September 15, 2004.
                                  9. A post-implementation review is conducted to assess the
                                     effectiveness of the system in meeting the original
                                     objectives.
                                  Management’s Response: The Enterprise Networks
                                  organization will conduct a post-implementation review
                                  within 60 days of accepting the TAT system application.
                                  Additionally, a follow-up review will be conducted
                                  6 months after the system has been fully implemented.
                                  OMB Circular A-123 requires managers to maintain
Control Weaknesses in
                                  appropriate, cost-effective controls over the agency’s
Managing the Cellular
                                  financial resources and assets to improve the accountability
Telephone Inventory Still Exist
                                  and effectiveness of Federal Government programs and
                                  operations. Specifically, it requires agency managers to
                                  establish management controls that provide reasonable
                                  assurance that assets are safeguarded against waste, loss,
                                  unauthorized use, and misappropriation. It also holds
                                  agency managers responsible for taking timely and effective
                                  action to correct deficiencies. For example, it stipulates that
                                  management has a responsibility to identify and implement
                                  corrective actions regarding agreed to Inspector General
                                                                                         Page 16
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored

                    audit recommendations within 1 year, to the extent
                    practicable.
                    The national cellular telephone inventory is currently not
                    managed using the TAT system; however, the IRS plans to
                    move the cellular telephone inventory and billing function
                    to the TAT system in FY 2005. Since 1993, we have
                    performed several audits and reported control weaknesses in
                    managing the IRS’ cellular telephone inventory.14 IRS
                    management agreed to establish an accurate cellular
                    telephone inventory, conduct annual inventory validations,
                    and implement an automated process that will compile a
                    national cellular telephone database and be used to order
                    equipment, automatically update the inventory, and support
                    the annual inventory validations.
                    Although the IRS established an automated process to
                    improve the management of its cellular telephone inventory,
                    control weaknesses continue to exist. For example, an
                    accurate inventory of cellular telephones has not been
                    established, and policies and procedures have not been
                    developed for completing the annual validation of the
                    cellular telephone inventory and reporting the results.
                    An accurate inventory of cellular telephones has not
                    been established
                    To establish a current inventory, the IRS mandated that all
                    new requests for cellular telephones be made using the
                    electronic ordering system for wireless devices, effective
                    August 1, 2002. In addition, all IRS employees that were
                    assigned a cellular telephone prior to implementation of the
                    automated process were required to register their telephones
                    on the Wireless Services Web Page by September 1, 2002.
                    Current cellular telephone holders were warned that, if they
                    did not timely register their cellular telephones, their service
                    would be discontinued until registration occurred.


                    14
                      Review of the Service’s Controls Over Voice Telecommunications
                    Charges (Reference Number 034908, dated September 1, 1993);
                    Monitoring of Long Distance and Cellular Telephone Costs
                    Continues To Need Improvement (Reference Number 2001-20-171,
                    dated September 2001); and Controls Over the Telecommunications
                    Programs Continue to Need Improvement (Reference
                    Number 2002-20-198, dated September 2002).
                                                                               Page 17
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored

                    The initial cellular telephone inventory was completed in
                    September 2002; however, it is not accurate because it does
                    not include employees that had cellular telephones prior to
                    implementation of the automated process but failed to
                    register their cellular telephones in the database by
                    September 1, 2002, as required. The Wireless Program
                    Office acknowledges that it has not yet established an
                    accurate inventory of cellular telephones. In addition,
                    management advised that the IRS is currently being billed
                    monthly for approximately 9,100 cellular telephone
                    numbers, but management could not provide the cellular
                    telephone inventory records.
                    Management also could not provide the monthly costs for
                    cellular telephone services. We requested the information
                    on two occasions during the audit and were advised the
                    information could not be provided. However, after we
                    completed our audit work, management stated that the
                    monthly costs for cellular telephone services could be
                    provided from the vendor bills. Since our audit work was
                    completed, we did not obtain and review the cost
                    information.
                    Although service was to be discontinued for unregistered
                    cellular telephones, the Wireless Program Office explained
                    that the IRS has been reluctant to cancel service for those
                    employees who failed to register their cellular telephones.
                    This is due, in part, to the fact that some of the unregistered
                    cellular telephones were assigned to IRS executives.
                    Wireless Program Office management believes it is
                    inappropriate to discontinue cellular telephone service for
                    IRS executives who have not registered their cellular
                    telephones. Consequently, the IRS continues to be at risk of
                    the possible misappropriation of cellular telephones and the
                    payment of erroneous or unauthorized cellular telephone
                    charges for individuals who may no longer work for the IRS
                    or who have changed positions and no longer have a need
                    for a cellular telephone.
                    Policies and procedures have not been developed for
                    completing the annual validation of the cellular
                    telephone inventory and reporting the results
                    To maintain an accurate inventory of cellular telephones, the
                    IRS agreed to conduct annual inventory validations. As part
                                                                           Page 18
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored

                    of this process, the IRS issued guidance requiring each
                    employee with an issued cellular telephone to log on to the
                    Wireless Services Web Page (upon receipt of an email
                    notification) and verify his or her account information
                    (e.g., name, address, cellular phone make and model).
                    However, the Wireless Program Office has not developed
                    guidelines for its staff specifying how to perform the annual
                    cellular telephone inventory validation.
                    In addition, no document was prepared to report the results
                    of the initial inventory validation (i.e., exceptions identified
                    and corrective actions planned). As a result, discrepancies
                    that existed between registered cellular telephones in the
                    database and cellular telephones for which the IRS is being
                    charged for services were not reported, and corrective
                    actions have not been identified. Management attributes the
                    delay in developing appropriate policies and procedures to
                    limited project staffing and other priorities. However,
                    requirements are currently being developed for various
                    administrator guides and management reports.
                    The Wireless Program Office is aware of the problems in
                    effectively managing the cellular telephone inventory and
                    has initiated some corrective actions. For example,
                    management submitted a Request for Information
                    Services (RIS)15 to require changes to the electronic
                    ordering system and to establish various management
                    reports. Management will also be developing user and
                    administrator guides. In addition, management will assign
                    responsibility for updating the cellular telephone inventory
                    database to the local telecommunications staff rather than
                    the assigned cellular telephone holders.
                    While local telecommunications employees will validate
                    the cellular telephone inventories, the reports to be used for
                    the validation are inaccurate. Our review of an inventory
                    report issued in March 2004 for 1 area code included
                    48 cellular telephone numbers and the associated devices.
                    Of these 48 cellular numbers, 22 (46 percent) were duplicate

                    15
                      A RIS is a formal request for support from any organization to the
                    Modernization and Information Technology Services (MITS)
                    organization. Requests can be for changes to current or planned
                    programs, corporate hardware, Commercial Off-the-Shelf software
                    products, system testing, and other MITS services.
                                                                                   Page 19
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored

                    listings (some as many as 5 times). The continued existence
                    of control weaknesses in managing the cellular telephone
                    inventory exposes the IRS to the possible misappropriation
                    of assets and the payment of erroneous or unauthorized
                    charges.

                    Recommendations

                    The CIO should ensure:
                    10. Service is immediately discontinued for cellular
                        telephones that have not been registered in the national
                        database.
                    Management’s Response: A memorandum from the CIO
                    was signed on August 5, 2004, and distributed to all BODs
                    instructing all employees who have IRS-issued cellular
                    telephones to register these cellular telephones by
                    September 30, 2004. Failure to register a telephone will
                    result in suspension of service to that telephone until it is
                    registered. By October 31, 2004, the Wireless Staff will
                    suspend service on any remaining non-validated
                    (i.e., unregistered) telephones.
                    Employees will have an opportunity to protest and register
                    their telephones prior to the end of the calendar year.
                    However, telephones remaining on suspended service on
                    December 31, 2004, will have service terminated and the
                    telephone number will be dropped from the inventory.
                    11. Policies and procedures are developed for completing
                        the annual inventory validation and reporting the
                        inventory results.
                    Management’s Response: Policies and procedures
                    regarding the Cellular Telephone program are part of the
                    Wireless Electronic Ordering System web page. They are
                    also documented in the Internal Revenue Manual (IRM).
                    The annual validation process already described in the
                    cellular telephone policy statement will be followed
                    annually. Additionally, improvements are being made to
                    the web site which will enable a more effective validation
                    process.
                    12. A complete and accurate inventory of cellular
                        telephones is established as an interim measure until the
                                                                          Page 20
             Telecommunications Costs Controls Have Not Been Effectively
            Implemented and Should Continue to Be Improved and Monitored

                                     inventory management and billing function can be added
                                     to the TAT system.
                                Management’s Response: The requirement for a complete
                                and accurate inventory will be fully met once the corrective
                                actions described for Recommendations 10 and 11 are
                                implemented. Once the TAT system program is fully
                                accepted and the post-implementation review is conducted,
                                a determination will be made as to whether the inclusion of
                                a cellular telephone inventory module in the TAT system is
                                a cost-effective solution for the Federal Government.
                                The Government Accountability Office16 Standards for
Annual Inventories of Phone
                                Internal Control in the Federal Government require that
Cards Have Not Occurred on a
                                periodic comparisons of resources with accountability
Consistent Basis
                                records be completed to reduce the risk of errors, fraud, or
                                unauthorized use. In 1993, we reported that the IRS needed
                                to improve controls over issued Federal Government phone
                                cards.17 In response, IRS management agreed to conduct an
                                annual inventory of its phone cards and issue inventory
                                guidelines and procedures. In September 2001, we reported
                                that the IRS had conducted only one inventory of the phone
                                cards since 1993.18
                                The IRS has approximately 39,000 phone cards issued to its
                                employees, approximately 16,000 of which are currently
                                being converted from Sprint to AT&T phone cards. IRS
                                management has implemented several procedures to
                                safeguard and manage the phone card inventory to minimize
                                the risk of waste, fraud, and abuse. For example, the staff
                                responsible for maintaining the phone card inventory
                                updates the inventory database regularly based on
                                information received from managers and employees
                                notifying them if an employee has been reassigned,
                                separated from the IRS, or no longer has a business need for
                                the phone card. In addition, a monthly reconciliation
                                between the phone card database and the Totally Automated


                                16
                                   Formerly the General Accounting Office.
                                17
                                   Review of the Service’s Controls Over Voice Telecommunications
                                Charges (Reference Number 034908, dated September 1, 1993).
                                18
                                   Monitoring of Long Distance and Cellular Telephone Costs Continues
                                To Need Improvement (Reference Number 2001-20-171, dated
                                September 2001).
                                                                                            Page 21
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored

                    Personnel System (TAPS)19 is performed to ensure phone
                    cards were cancelled for employees that have left the IRS.
                    The IRS also developed a separate web site and the Calling
                    Card Ordering System (CCOS)20 to manage the phone card
                    inventory. The IRS plans to migrate the inventory
                    management and billing processes for phone cards to the
                    TAT system in FY 2005.
                    Although the IRS has taken several measures to improve the
                    management of issued phone cards, a complete inventory of
                    the phone cards has not been conducted since 2002.
                    Management explained that only partial inventories were
                    completed in 2003 because the IRS began converting phone
                    cards from Sprint to AT&T. With this process nearing
                    completion, management stated that a full audit of the phone
                    card inventory would be conducted during this calendar year
                    prior to converting the remaining cards to AT&T.
                    In addition, management has not documented the guidelines
                    and procedures for completing the annual inventory or
                    reporting the inventory results (i.e., exceptions identified
                    and corrective actions planned). Management attributes this
                    to limited staffing and other priorities. Not having
                    consistent recurring inventories and documented inventory
                    procedures increases the risk that unauthorized use of
                    IRS-issued phone cards will not be detected.

                    Recommendations

                    The CIO should ensure:
                    13. Policies and procedures are developed for completing
                        the annual inventory validation and reporting the
                        inventory results.
                    Management’s Response: The IRM currently describes
                    phone card policies and procedures. Draft policies and
                    procedures were developed in May 2004 and are being
                    reviewed. The Enterprise Networks organization will share

                    19
                       The TAPS is a multi-module system that maintains employee
                    information, processes personnel actions, and allows the input and
                    validation of time and attendance records.
                    20
                       The CCOS is an online ordering and inventory system to provide
                    accountability of a centralized phone card database.
                                                                                  Page 22
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored

                    inventory reports with BOD management by
                    September 30, 2004. These procedures will be placed in a
                    Detroit Computing Center Phone Card Staff Desk Guide by
                    November 2004.
                    14. A complete inventory of phone cards is established prior
                        to migrating the inventory management and billing
                        function to the TAT system and annual phone card
                        inventories are completed on a consistent basis.
                    Management’s Response: The CCOS contains an accurate
                    inventory of the 37,000 Sprint/AT&T phone cards. In
                    April 2004, the Enterprise Networks organization began an
                    annual audit/revalidation process for Sprint phone cards by
                    the BODs, which is being conducted simultaneously with
                    the transition of the phone cards to AT&T. The transition to
                    AT&T is expected to be completed in November 2004.
                    Once the TAT system program is fully accepted and the
                    post-implementation review is conducted, a determination
                    will be made as to whether the inclusion of a phone card
                    inventory module in the TAT system is a cost-effective
                    solution for the Federal Government.




                                                                        Page 23
             Telecommunications Costs Controls Have Not Been Effectively
            Implemented and Should Continue to Be Improved and Monitored

                                                                                      Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the effectiveness of the controls over
telecommunications costs. To accomplish this objective, we:
I.    Reviewed national policies, procedures, and training materials for reviewing long distance
      telephone call and phone card use reports and for initiating disciplinary and collection
      actions for unauthorized calls using the Telecommunications Asset Tool (TAT) system
      finance module. We interviewed management about the implementation status and current
      functionality of the TAT system finance module, reviewed system documentation, and
      identified the number of ad hoc reports requested by managers in the first 2 quarters of
      Fiscal Year 2004. We also assessed management’s actions to resolve problems
      encountered while implementing the enhanced reporting tool to identify waste, fraud, and
      abuse.
II.   Reviewed national policies, procedures, and training material for reviewing and certifying
      local billing invoices using the TAT system electronic billing (e-billing) module. We also
      reviewed system documentation and interviewed management on the implementation status
      and current functionality of the e-billing module. For the 48 offices registered to use the
      TAT system e-billing module, we surveyed all 42 offices having an email address for the
      person to contact to identify system problems. We also judgmentally selected eight offices
      to evaluate the invoice review and reconciliation process. We interviewed personnel
      responsible for reconciling the local billing invoices and obtained a walk-through of the
      process. The selected offices were geographically dispersed across the country. We
      judgmentally selected the eight offices because there was no need to project the results to
      the population.
III. Reviewed policies and procedures for managing and monitoring the cellular telephone and
     phone card inventories. We also interviewed management to determine the roles,
     responsibilities, and procedures for updating and reconciling the inventories and
     conducting annual inventory validations. In addition, we reviewed the documentation for
     completed inventory reconciliations and the resolution of identified discrepancies.
IV. Reviewed the status and results of the corrective actions taken by management to address
    the internal controls material weakness over telecommunications costs, including the
    support to downgrade the material weakness to a reportable condition. We also
    interviewed management on the results of the implemented savings initiatives and the
    Treasury Communications System review completed January 2003.




                                                                                              Page 24
            Telecommunications Costs Controls Have Not Been Effectively
           Implemented and Should Continue to Be Improved and Monitored

V.   Interviewed management on the expected benefits and performance measures for the TAT
     system. We also obtained documentation identifying the TAT system performance
     measures and reviewed performance statistics for the TAT system to determine whether the
     expected benefits were being derived. In addition, we reviewed any evaluations of the
     TAT system completed by management to assess system performance.




                                                                                      Page 25
            Telecommunications Costs Controls Have Not Been Effectively
           Implemented and Should Continue to Be Improved and Monitored

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Olivia Jasper, Lead Auditor
Van Warmke, Senior Auditor
Steven Gibson, Auditor
Perrin Gleaton, Auditor
Suzanne Noland, Auditor




                                                                                         Page 26
            Telecommunications Costs Controls Have Not Been Effectively
           Implemented and Should Continue to Be Improved and Monitored

                                                                                Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Director, End User Equipment and Services OS:CIO:I:EU
Director, Enterprise Networks OS:CIO:I:EN
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Director, End User Equipment and Services OS:CIO:I:EU
       Director, Enterprise Networks OS:CIO:I:EN
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                     Page 27
              Telecommunications Costs Controls Have Not Been Effectively
             Implemented and Should Continue to Be Improved and Monitored

                                                                                           Appendix IV


                                         Outcome Measures

This appendix presents detailed information on the measurable impact that our previously
recommended corrective actions have had on tax administration. These benefits will be
incorporated into our Semiannual Report to the Congress.
Type and Value of Outcome Measures:
•   Cost Savings, Questioned Costs – Actual; $2.2 million. Potential; $48,000 (see page 3).
•   Cost Savings, Funds Put to Better Use – Actual; $3.2 million (see page 3).
Methodology Used to Measure the Reported Benefit:
In September 2002, we reported that the Internal Revenue Service (IRS) did not have effective
controls over its local telecommunications costs.1 Specifically, the IRS did not perform an
in-depth analysis of the local telephone services billing invoices to identify unauthorized charges
and verify that the IRS is not being charged for telephone services at vacated offices. To address
this issue, the IRS hired an outside firm to conduct an analysis of its local telecommunications
costs and determine potential areas of savings. As of May 19, 2004, this analysis resulted in
disallowed charges and approved refunds from the Local Exchange Carriers (LEC) of
approximately $2.2 million and an additional $48,000 in projected refunds were pending final
negotiations with the vendors. In addition, the analysis will result in cost avoidance of
$3.2 million (annual cost avoidance of $635,000 computed over 5 years) in LEC overcharges to
the IRS.
Type and Value of Outcome Measure:

•   Inefficient Use of Resources – Actual; $742,000 (see page 3).
Methodology Used to Measure the Reported Benefit:
We previously recommended the IRS perform an in-depth analysis of Treasury Communications
System (TCS) invoices to identify billings for circuits and equipment that no longer exist at IRS
offices.2 In January 2003, the IRS completed a review of TCS billing invoices, which identified
$850,000 in unrecoverable circuit overpayments that resulted from the IRS not having
disconnected services when offices were relocated. Since the prior audit report claimed a
potential outcome measure of $108,000 in questioned costs, we are claiming $742,000
($850,000 - $108,000).

1
  Controls Over the Telecommunications Programs Continue to Need Improvement (Reference
Number 2002-20-198, dated September 2002).
2
  Cost Savings Can Be Achieved Through Improved Monitoring of the Treasury Communications System Contract
(Reference Number 2000-10-028, dated February 2000).
                                                                                                   Page 28
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored

                                                           Appendix V


        Management’s Response to the Draft Report




                                                               Page 29
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored




                                                               Page 30
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored




                                                               Page 31
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored




                                                               Page 32
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored




                                                               Page 33
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored




                                                               Page 34
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored




                                                               Page 35
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored




                                                               Page 36
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored




                                                               Page 37
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored




                                                               Page 38
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored




                                                               Page 39
 Telecommunications Costs Controls Have Not Been Effectively
Implemented and Should Continue to Be Improved and Monitored




                                                               Page 40
